<html>
<title> - [H.A.S.C. No. 114-104] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                        
                        [H.A.S.C. No. 114-104]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                    SPECIAL OPERATIONS FORCES IN AN

                      EVOLVING THREAT ENVIRONMENT:

                    A REVIEW OF THE FISCAL YEAR 2017

           BUDGET REQUEST FOR U.S. SPECIAL OPERATIONS COMMAND

                               __________

                              HEARING HELD
                             MARCH 1, 2016
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               ___________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
99-648                       WASHINGTON : 2016                      
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>  


                                    
  
           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                Peter Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Votel, GEN Joseph L., USA, Commander, U.S. Special Operations 
  Command........................................................     5
Whelan, Theresa, Principal Deputy Assistant Secretary of Defense 
  for Special Operations/Low-Intensity Conflict (ASD/SOLIC)......     3

                                APPENDIX

Prepared Statements:

    Votel, GEN Joseph L..........................................    40
    Whelan, Theresa..............................................    31
    Wilson, Hon. Joe.............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Nugent...................................................    65
    Mr. Zinke....................................................    65

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    69
    
    
 SPECIAL OPERATIONS FORCES IN AN EVOLVING THREAT ENVIRONMENT: A REVIEW 
  OF THE FISCAL YEAR 2017 BUDGET REQUEST FOR U.S. SPECIAL OPERATIONS 
                                COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                            Washington, DC, Tuesday, March 1, 2016.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
the Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee to order. I am pleased to welcome 
everyone here today to discuss our special operations forces in 
an evolving threat environment and to review the fiscal year 
2017 budget request for the U.S. Special Operations Command.
    Our special operations forces [SOF] remain essential and 
sometimes sole line of effort across the globe, offering 
lethal, flexible, and responsive options for geographic 
combatant commanders and the Commander in Chief.
    We have seen special operations forces increasingly 
leveraged for asymmetric and unconventional warfare operations 
against nation-state threats such as Russia, China, and Iran. 
Looking forward we expect special operations forces to remain 
heavily deployed across the globe in constant, sadly if not 
increased, numbers throughout fiscal year 2017.
    While the President's budget request includes a 2.3 percent 
increase to U.S. Special Operations Command, many challenges 
remain since the force is heavily dependent on overseas 
contingency operations funding.
    Furthermore, we see dwindling support from the military 
services who themselves suffer broader cuts and drawdowns. As 
we conduct oversight and preparation for the National Defense 
Authorization Act [NDAA], this subcommittee will spend 
considerable time ensuring that all resources are aligned and 
all policies appropriate.
    This includes focusing on how our special operations forces 
are being used to counter adversarial propaganda and enabling 
our partner forces across the globe with new programs such as 
the European Reassurance Initiative and the Counter Terrorism 
Partnership Fund.
    Lastly, but of considerable importance, is the 1208 
counterterrorism program authority used by the special 
operations requiring reauthorization beyond 2017. This 
important operational authority has proven critical to our 
global efforts to counter Al Qaeda and Daesh.
    I understand the Department [of Defense] [DOD] will seek an 
extension of this important authority to 2020. So we look 
forward to discussing that today.
    I would like to welcome our distinguished panel of 
witnesses and appreciate their service and perspectives on all 
of these issues. Today we welcome Ms. Theresa Whelan, the 
Principal Deputy Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict [SOLIC], and General 
Joseph Votel, Commander, U.S. Special Operations Command.
    I would like to welcome Ms. Whelan in her new role which 
carries many important responsibilities, but also take the 
opportunity to recognize the service of General Votel who was 
recently nominated as commander of U.S. Central Command.
    General Votel's contributions have been critical in 
safeguarding our Nation and our allies. And we wish you the 
best of success as you further serve American families.
    I would like to turn to my friend the ranking member, Mr. 
Jim Langevin of Rhode Island, for any comments he would like to 
make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you Mr. Chairman. And I want to thank 
our witnesses for testifying today on the President's fiscal 
year 2017 budget request for Special Operations Command [SOCOM] 
and special operations forces.
    And, General, in particular, thank you very much for your 
service. And I look forward to hearing the testimony from both 
of our witnesses today. And also welcome to you, Secretary 
Whelan.
    Today in the midst of our discussions and debate about 
decreasing end strengths of general purpose forces, and plan 
drawdowns and contingencies overseas, our special operations 
forces continue to serve in a high operational tempo.
    Special forces are the pinnacle of our strategy for 
defeating terrorists around the world, underpin our sensitive 
military operations, and stand ready to deploy on a moment's 
notice.
    Although SOCOM has authority for spending on SOF-peculiar 
equipment and needs, we often neglect to recognize the reliance 
on general purpose forces and service budget's requirements 
ranging from enablers to facilities, to family counselors.
    I hope today's hearing will provide a better understanding 
of the impact of those drawdowns and budget reductions of their 
enterprise as well as inform us of the process in place for 
ensuring that SOF service common needs are being budgeted for 
by the services, especially those that are necessary to 
preserve the health of the force and their families.
    With regard to SOF-peculiar investments, I am pleased to 
see stability in the science and technology allocation, as well 
appropriate budgeting for these activities over the Future 
Years Defense Program.
    Leveraging and spurring innovation is a theme across the 
Department in the budget request. And SOCOM certainly has 
experience in the area.
    I appreciate the use of existing authorities to push the 
envelope rather than reinventing the wheel, examples being the 
recent SOFWERX Initiative and the utilization of the Small 
Business Innovation Research authority.
    I also appreciate that in reaching to non-traditional 
defense partners, SOCOM continues to utilize the tremendous in-
house capabilities available, such as our defense labs and 
DARPA [Defense Advanced Research Projects Agency] programs.
    So with that there is much to discuss in the hearing. And 
in order to allow for dialogue I am going to end my remarks by 
welcoming Ms. Theresa Whelan in her capacity as the Principal 
Deputy Assistant Secretary of Defense, Special Operations/Low-
Intensity Conflict and performing the duties of Assistant 
Secretary for SOLIC.
    With that I would also like to congratulate General Votel 
on his nomination to be the commander of Central Command. 
Again, General, I want to thank you for your extraordinary 
service and dedication to our country and look forward to your 
upcoming confirmation hearing.
    So with that, Mr. Chairman, I yield back and look forward 
to the hearing. Thank you.
    Mr. Wilson. Thank you, Mr. Langevin.
    I would like to remind our witnesses that your full written 
statements will be submitted for the record. So we ask you to 
summarize your comments in 5 minutes or less.
    And then following your comments each person, each member 
of the panel, will have the opportunity, at a strictly enforced 
5 minutes, by Mr. Pete Villano. And so that everyone has an 
opportunity to ask questions. Particularly I want Congressman 
Brooks to ask questions since he was here first.
    So we will proceed, Ms. Whelan, to begin with you. We look 
forward to your opening statement.

    STATEMENT OF THERESA WHELAN, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS/LOW-INTENSITY 
                      CONFLICT (ASD/SOLIC)

    Ms. Whelan. Thank you, Chairman Wilson, Ranking Member 
Langevin, and distinguished members of the committee. And thank 
you for the opportunity to testify before you today.
    I am here performing the duties of the Assistant Secretary 
of Defense for Special Operations and Low-Intensity Conflict to 
report to you on the health and welfare of our Nation's special 
operations forces enterprise, and on our ability to address our 
country's security concerns using special operations, now and 
into the future.
    I am pleased that my partner at the table this afternoon is 
General Votel, who has been an exceptional U.S. SOCOM 
commander. And our entire SOLIC team was very glad to learn 
that he has been nominated to lead U.S. Central Command.
    I would like to say up front that we are very grateful for 
the committee's strong support of special operations 
initiatives and resources. My remarks this afternoon will focus 
on three topics: the current operating environment, SOLIC's 
policy priorities, and our oversight activities.
    Today our SOF personnel work in an environment where global 
conflict has expanded beyond the physical to dimensions such as 
cyberspace, the social media sphere, and bio warfare. 
Individuals, illicit networks, and terrorist groups such as 
Daesh can disrupt economies, interrupt the flow of information, 
and perpetrate significant violence, destabilizing countries 
and entire regions.
    We are also seeing other nations, our peers and near peers, 
making use of these same new technologies to enhance 
aggressive, asymmetric tactics. In the face of this evolving 
strategic landscape the ability of SOF to operate unobtrusively 
with a small footprint in contested environments is becoming 
ever more crucial.
    As a result it is important that we get our policy for and 
our oversight of SOF right. So I will describe some of our 
major priorities. First and foremost we prioritize developing 
the best SOF personnel and equipping them with cutting-edge 
technologies.
    That requires constantly improving our existing platforms, 
equipment, and gear. It also means investing in new, innovative 
technologies. Another important policy priority is building 
strong working relationships with the SOF of allied and partner 
nations.
    By boosting other nations' SOF capabilities we have the 
potential in the future to leverage those forces including 
their unique authorities. In particular the Counterterrorism 
Partnership Fund, CTPF, significantly boosted our most 
important tool, section 2282, the Global Train and Equip 
authority.
    We appreciate Congress's continued support for this and 
other capacity-building authorities. Likewise our counterdrug 
authorities permit SOF and other DOD components to work with 
U.S. partner nation law enforcement to help counter drug 
trafficking and other forms of transnational organized crime 
which can serve as a source of funding for terrorists, 
insurgents, and other threat networks.
    Another important part of SOLIC's work is oversight. For 
example we work with the Joint Staff and SOCOM to ensure that 
SOF activities are consistent with the policy guidance of the 
President and the Secretary of Defense.
    We also routinely conduct site surveys to assess and 
evaluate our train and equip programs so that they are as 
effective and efficient as possible. SOF amounts to roughly 1.8 
percent of the overall defense budget, and we remain committed 
to strengthening our budget management to maximize taxpayers' 
return on investments in SOF.
    We will continue to work closely with Congress as we 
allocate resources and implement programs. In conclusion, I 
would like to thank Congress for its continuing support of our 
men and women in uniform and their families. And I look forward 
to your questions.
    [The prepared statement of Ms. Whelan can be found in the 
Appendix on page 31.]
    Mr. Wilson. Thank you very much, Ms. Whelan. We now proceed 
to General Votel.

STATEMENT OF GEN JOSEPH L. VOTEL, USA, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    General Votel. Good afternoon, Chairman Wilson, Ranking 
Member Langevin, and distinguished members of the subcommittee.
    Thank you for the opportunity to appear before you this 
afternoon along with my teammate, Ms. Whelan, to discuss the 
current posture of the United States Special Operations Command 
and this year's budget request.
    While my priorities remain unchanged from testimony last 
year, I can assure you right up front that U.S. SOCOM is always 
learning, evolving, and adjusting to meet the current 
operational environment.
    Our commitment to excellence and our dedication to serving 
the needs of our Nation have never been stronger. On any given 
day nearly 10,000 SOF men and women are deployed or forward 
stationed to roughly 80 different countries around the world.
    They fill geographic combatant commander requirements that 
span the range of our congressionally delineated core 
activities from behind the scenes information gathering and 
partner building to high-end dynamic strike operations.
    Every success that they have reinforces what we already 
know. Our people are our greatest asset. They are adaptive, 
bold, and innovative. Through persistent presence in harm's way 
they allow us to see opportunities early, and they routinely 
deliver strategic impacts with the smallest of footprints.
    Perhaps no story makes this point more clearly than that of 
Senior Chief Petty Officer Ed Byers, a Navy SEAL [Sea, Air, and 
Land] who was awarded our Nation's highest military honor, the 
Congressional Medal of Honor, just yesterday.
    Master Sergeant Josh Wheeler, an Army operator who put 
himself in the line of fire and gave his life to protect our 
partner raid force in Iraq as they rescued scores of Iraqi and 
Kurdish hostages, is yet another hero among our force.
    Stories of these two American heroes are now publically 
known. But it is the stories of the thousands of other quiet 
professionals that will remain unknown that truly characterize 
what we provide for our Nation.
    We recognize, however, these sacrifices do not come without 
a cost. So let me say right up front, and emphasize my 
strongest point this afternoon, I want to thank the committee 
for your devotion to the well-being and resiliency of our 
special operators and their family.
    Their emotional, social, psychological, and physical health 
is in good hands thanks to all of you. And we are truly 
grateful for your continued support.
    The environment in which these great Americans serve 
continues to evolve. We are in an era of rapidly shifting 
power, with competition and conflict between both state and 
non-state actors, actors who are increasingly ambiguous and 
transregional.
    As a result this past year we focused on gaining a deeper 
understanding of today's gray-zone challenges. And we 
restructured operational rhythm to focus on the transregional 
nature of violent extremist organizations. Given this complex 
security environment, the demand for SOF skills is 
understandably high.
    Yet it is clear that significant expansion of U.S. SOCOM's 
role carries significant risk. It remains true, SOF cannot, and 
should not, be mass produced. Nor can we build or rebuild the 
force overnight. The skills, maturity, and agility that we 
expect of our force requires significant time, effort, 
training, and investment to develop and sustain.
    It is also true that we do not deploy or employ SOF without 
external support. U.S. SOCOM is fully dependent upon and 
integrated with our service partners. They provide our people 
much of the equipment that we operate and the critical enabling 
forces we depend upon on a daily basis around the globe.
    Not only do we rely on SOF-specific enhancements to 
service-managed programs but our ability to operate stands 
squarely on service-provided capabilities. Infrastructure, 
transportation, communications, ISR [intelligence, 
surveillance, and reconnaissance], and close air support are 
but a few of the areas of dependence.
    Alongside our colleagues in the services we are grateful 
for the budget stability forged out of last year's agreement. 
And we remain hopeful for similar stability beyond 2017.
    In closing I would like to thank Congress and the committee 
for your outstanding support in funding, in authorities, and in 
encouragement. Your oversight of our efforts to man, train, 
equip, and employ SOF remains critical as we confront an 
increasingly complex security environment.
    We look forward to continuing this great relationship. And 
I pledge to you that we will remain transparent and engaged. I 
remain honored and humbled to command the best special 
operations force in the world.
    I am extremely proud of each and every one of our men and 
women and their families as they continue to serve this great 
nation. I look forward to your questions and our dialogue this 
afternoon.
    [The prepared statement of General Votel can be found in 
the Appendix on page 40.]
    Mr. Wilson. Thank you very much, General.
    We now will proceed to the 5-minute period for each member 
of the subcommittee. Beginning first for both of you, Ms. 
Whelan and General Votel, I am very concerned about state-
sponsored non-state, anti-American, untrue propaganda. How can 
we improve our efforts to counter enemies' slanderous 
propaganda and recruiting efforts?
    Ms. Whelan. Thank you, Congressman. Within the Department 
we obviously have authorities for our support to military 
information systems [MIS]. And we support both the State 
Department as well as our operators in the field in an 
information operations arena.
    In particular, in the field, we have MIS teams deployed 
with a number of embassies and supporting our COCOMs, our GCC 
[geographic combatant commanders] COCOMs. They are assisting in 
attempting to counter the negative messaging and the propaganda 
that we are seeing coming from ISIL [Islamic State of Iraq and 
the Levant] and from other sources.
    Additionally, within the Department we are supporting the 
State Department's efforts as the lead in the counter-messaging 
with the establishment of the new Global Engagement Center to 
look at overall counter-messaging against ISIL and their 
propaganda, negative propaganda.
    Mr. Wilson. Thank you.
    General Votel. Mr. Chairman, if I could just add to Ms. 
Whelan's comments.
    First of all, let me just pass my thanks to the committee 
and the subcommittee for your support and encouragement in the 
pushing us to look at and experiment with things that we can do 
to look at how we use publically available information and how 
we operate better in this sphere. So the authorities that you 
have passed to us are greatly appreciated and we are very, very 
thankful for that.
    On top of Ms. Whelan's comments, which I all agree with, I 
would offer three things that I think we have to focus on. 
First, we have to be able to move as fast as or faster than our 
adversaries. Our messaging efforts have to be responsive, and 
they have to be ahead of the enemy.
    Second of all, I think we have to be willing to experiment. 
We have to be willing to push the envelope where we can in 
accordance with authorities and in accordance with our laws, in 
accordance with the oversight that is provided for us, and 
continue to push in this area wherever we can.
    Certainly, understanding social media and public available 
information is an area you are encouraging us to look in. And 
then third we have to remember that messaging and information 
operations can't be an afterthought.
    It has to be something that is baked into everything we are 
doing. It has to be something we look at right from the 
beginning as we conduct all of our operations from tactical-
level operations that are well supported by our MIS teams that 
are deployed globally all the way up to larger operations that 
we take in the information component and messaging component of 
it.
    Mr. Wilson. Well. I particularly have never gotten over, I 
was in Islamabad a couple years ago and there was a column. It 
was a newspaper, very modern looking with Reuters articles, 
Associated Press.
    Then I got inside and I saw an op ed. And the op ed was 
this hate filled diatribe of how the American effort in 
Afghanistan was specifically directed at mosque and schools and 
hospitals. And I thought this is lunacy.
    And I looked to see who wrote it. It was written by Fidel 
Castro. So what an observation he had from Havana that he could 
see that far. But it needed to be counteracted. I mean it just 
was so ignorant and so insulting.
    And so, as a former newspaper reporter I was particular 
struck by how stupid it was. But that was published in a 
respectable publication. I mentioned in my opening statement of 
1208 counterterrorism authority which has been critical since 
2005. Can you tell the committee how important this is and what 
the status of its maintenance?
    Ms. Whelan. I will start, sir. 1208, I think, is probably 
one of our most important programs to the SOF community and has 
probably, of all the programs that we have, and we have many 
successful programs, has given us the best return on investment 
across the board.
    We have a number of 1208 programs underway now. And we very 
much appreciate the increase in the funding authority that we 
have to increase the number of 1208 programs. But 1208 has 
allowed us, they are small programs.
    We are focused. We work with the best and the brightest in 
the countries in which we have the 1208 programs. And we have a 
great deal of flexibility. That is the other factor that makes 
the 1208 so valuable to our special operators, is the 
flexibility of the program, and the fact that the longevity of 
the program. Many of these programs have been in use for a 
number of years.
    General Votel. Mr. Chairman, I would just add briefly to 
Ms. Whelan's comments because I think she hit on everything 
here.
    This is an extraordinary authority, very unique to Special 
Operations Command, and I will tell you that it is not only 
appreciated by Special Operations Command, but in particular it 
is appreciated by our geographic combatant commanders, 
particularly the CENTCOM [U.S. Central Command] commander and 
the AFRICOM [U.S. Africa Command] commander, where we employ 
this authority the most.
    There are 19 different programs in 16 different countries 
so this is an extraordinary capability, as Ms. Whelan 
indicated. We are developing some extraordinary partner 
capacity out there. It is usually very small. But it is very, 
very capable. And what we see is considerable effects, positive 
effects from that program.
    Mr. Wilson. Thank you very much, General. We now proceed to 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, thanks to both of our witnesses for being here 
today, what you are doing on behalf of the national security of 
our country.
    To our witnesses, as one of directed energy's strongest 
advocates up here in the Congress, I just want to recognize 
that technology has tremendous potential to change the game in 
our favor.
    It is also true that operationalizing this technology is 
certainly going to be no small feat. And, therefore, I urge 
SOCOM to leverage the work of the Department by integrating 
efforts with the Joint Technology Office before making 
significant investments.
    And I support efforts to accelerate the appropriate 
operational use of this technology. But much remains to be done 
both program- and policy-wise before it should be considered 
fully operational and fielded.
    General Votel and Secretary Whelan, can you please describe 
SOCOM's efforts in directed energy and in particular are these 
efforts being synchronized with the Joint Technology Office?
    General Votel. Thank you. I will start, Congressman.
    To answer your question, yes, they are. We are in the early 
stages of this. So I would define our efforts as being 
developmental at this particular point.
    I think what we see with directed energy is that it is a 
technology that will provide us precision, will provide us some 
level of scalability, and it is certainly something that we 
should look at for kind of our future operational needs.
    We are aware of the extensive amount of effort that has 
gone into directed energy in the past. And so, some of the 
advice that we have gotten along the line matches what you 
suggested to us just a moment ago. And that is to look at what 
is working and capitalize on that as opposed to trying to go 
back and reinventing the whole program.
    And so, we are well integrated with the services with a 
variety of different labs right now looking at this. And we 
have had an opportunity to talk to the Deputy Secretary of 
Defense about it and what we are doing. We have got good 
support from him with this. So we look forward to moving 
forward with this.
    In many ways I think SOF can help the broader force with 
this with our testing, our development, our experimentation 
with it, not only provide a capability for us, but what I hope 
is to be able to provide something of the services where their 
much more considerable resources can take advantage of any 
success we are able to achieve.
    Mr. Langevin. Thank you. Thank you.
    Secretary Whelan and General Votel, can you tell me what 
process is used to resolve disputes about whether an activity 
should be supported and paid for by the services?
    Ms. Whelan. Thank you, Congressman, for the question.
    The primary process is we look at whether or not the 
activity or the requirement is SOF-specific or if it is also 
applicable to the general force. If it is SOF-specific then it 
moves into the MFP [Major Force Program] 11 SOF accounts. 
Otherwise we look for the services to cover it.
    General Votel. Congressman, I would add two quick comments 
to you.
    Part of this, I think, is making sure that we educate our 
force on what is, how we define SOF-peculiar and make sure that 
we understand how we are doing. And to that end we have 
established some, a narrative across the command that make sure 
that our leaders who are making decisions on funding and all 
that kind of stuff understand what it is that we consider to be 
SOF-peculiar.
    So we aren't creating a problem in ourselves, spending 
money on things that we shouldn't be.
    The other thing that I would tell you that we are doing is 
we are using our service SOCOM talks that we normally conduct 
in about a 12- to 18-month cycle with each of the services to 
talk about this specific issue right here and talk about what 
our requirements are to Congress for MFP 11, what our 
requirements are to the Department, what the intent of that is.
    And then using that as a mechanism to talk about service-
provided support to SOCOM and how we leverage the very unique 
funding authorities that Congress has passed to us to really 
focus on SOF-peculiar capabilities.
    Mr. Langevin. I am glad that there is a process in place. I 
think that is important.
    Secretary Whelan, your predecessor created a special 
operations oversight council. Do you intend to continue that 
initiative, and is the council properly staffed and resourced?
    Ms. Whelan. Thank you, Congressman. Yes, actually, I do 
intend to continue it. And in my capacity performing the duties 
I intend to maintain that council.
    I think it was a valuable tool for my predecessor because 
it allowed him to engage with the COCOMs, the services, as well 
as SOCOM in a high-level forum to discuss issues that may not 
have been resolved at lower levels.
    So it was a consultative tool for him in conducting his 
responsibilities, his specific SOCOM oversight 
responsibilities. I think that it will continue to be a very 
useful tool for me as long as I am performing the duties of the 
Assistant Secretary of Defense.
    From a resourcing standpoint it does not require much in 
the way of resourcing. My SOLIC staff serves as the executive 
secretary for it. It only needs as necessary.
    Actually, most of the issues are resolved at the working 
level through working groups. So we had a SOPOC [Special 
Operations Policy Oversight Council] meeting this past summer 
more as a wrap-up of issues that had been resolved. I do intend 
to have one this spring, again, to just review the bidding 
because we don't have any contentious issues. But I think it is 
a valuable tool.
    Mr. Langevin. Okay. I am glad to hear that. Very good. 
Thank you. My time has expired. I thank you both again for your 
testimony, your service to our country, and, General Votel, 
again, all the best to you. Thank you.
    Mr. Wilson. Thank you, Mr. Langevin.
    And Congress is very fortunate to have a veteran of Iraq 
and Afghanistan in its service, Congressman Duncan Hunter of 
California.
    Mr. Hunter. Thank you, Mr. Chairman. Gentleman and lady, 
thank you for being here.
    I have got a couple things. It will probably go fast. One, 
I grabbed the Marine Corps about 2 months ago and brought them 
up to my office because there were some guys in from Australia 
where they use moving robot targets that they can network and 
program to run together, run away, or charge you, or flee.
    And what the Australian SAS [Special Air Services] figured 
out is it was the first time a lot of their guys hadn't been 
overseas and had to shoot people, had shot a moving target. Are 
you aware of anything like this? Is SOCOM aware of them?
    General Votel. I am aware of a variety of----
    Mr. Hunter. Okay.
    General Votel [continuing]. Technologies and training 
apparatuses that are out there that really just, you know, put 
people in situations where they have to respond.
    Mr. Hunter. These are robots that move.
    General Votel. And move. And I----
    Mr. Hunter. Actually move away from you?
    General Votel. Yes, Congressman. I am aware of that. I 
don't know if it is a specific program that you are talking to. 
But I certainly----
    Mr. Hunter. This was called Marathon, but, you know, there 
are probably a bunch out there. But they just did a 
demonstration at Camp Pendleton for MARSOC [Marine Corps Forces 
Special Operations Command] and the Marines about 2 weeks ago 
when I was in town.
    Anyway, pretty interesting stuff that I didn't believe 
until I actually saw it. So I just wanted you to be, I mean, 
you know, there is tons of stuff out there and I am sure you 
see a whole bunch of it.
    Number two, you have purview over what special forces 
operators, or what different groups, and by group, not just 
Navy SEAL groups, but the different groups spend in their 
wheelhouse, right? You have purview and they have transparency 
to you on what they buy and what they spend.
    So it came to my attention, especially watching Senior 
Chief Byers get the Medal of Honor, I have had multiple SEALs, 
multiple times in the last 6 months come to be in San Diego 
because I am in San Diego, and tell me how things have changed 
dramatically from 5 or 6 years ago.
    Meaning, they don't get weapons now to work up with for 2 
years. They get their weapon when a guy comes back and hands 
over the weapon. And then they have to recalibrate it, put on 
all their optics, all their laser stuff for themselves.
    And then they have to turn that weapon back in again even 
if they are still in workups and they are going to deploy 9 
months later, they still have to give the weapon back to the 
next guys that are, you know, going out.
    It wasn't like that in the 2001 to 2010 timeframe. Are you 
aware of that? What they have to do with their weapons? And I 
don't, I mean, the operators get tons of stuff. I would say 
that the most important thing to them is their weapon. That is 
what you kill people with in the end. And things have changed.
    General Votel. Congressman, I am aware of your recent 
correspondence with Naval Special Warfare Command over this 
particular issue. And I know that Admiral Losey provided with 
an interim response here. And so to answer----
    Mr. Hunter. But you are familiar with the----
    General Votel. I am aware of that, and we are certainly 
running that down. So I would just add that, you know, one of 
the things that we do try to do with the weapons, you would 
recognize as a veteran, these guys put a lot of rounds through 
the weapons. So----
    Mr. Hunter. Yes. But I was in the Marine Corps I mean, I 
was----
    General Votel. Right.
    Mr. Hunter. You know, we just took what we got and did 
whatever we were told. But--you guys are special. That is why 
you have special in your name.
    General Votel. That is right. And so what we do try to do 
is ensure with that many rounds going through our weapons that 
they do have the right level of depot maintenance when they 
come back from deployments or long training periods. And if 
that is contributing to something here that might be creating 
a----
    Mr. Hunter. This is not a factor of too many rounds going 
through the weapon barrel. And then you just change out the 
upper, the barrel anyway.
    General Votel. Yes.
    Mr. Hunter. And you have armorers that do that in the Army 
and in the Navy. I have been to the armory in Coronado. But 
anyway that is not the problem.
    General Votel. Congressman, I look forward here to talking 
with the Naval Special Warfare Command about this specific 
issue and making sure that we understand it here. And that if 
there is something that we are contributing to that is 
impacting readiness of our operators we will certainly take 
immediate action to kind of correct that.
    Mr. Hunter. Because, you know, you have different tiers 
within the special operations community, too. You don't see the 
higher tiered units changing their weapons in when they come 
back.
    So I guess this is my question. It is a matter of where the 
money is being spent. So this leads me to this, what are your 
priorities? For instance, for the SEALs, so if it isn't having 
a weapon that stays with you during your deployable term, then 
what are the priorities?
    Do we have more SEALs now? Do we have more special forces? 
Did we increase the manpower and that is where the money is 
going as opposed to weaponry? Is that where your priorities 
are? And do you set priorities for all the different units? And 
do those priorities that you set overarch everything, or do you 
set specific priorities for different units?
    General Votel. First off, to answer the first part of your 
question, as you know the special ops community has grown 
considerably over the last decade or so. So we are roughly 
twice the size of what we were.
    So that certainly is a component of that. What I do on an 
annual basis is, I provide capabilities planning guidance to my 
commanders, to my component commanders, to my resource sponsors 
that provide the broad outline, and principles under which we 
will make investments in our capabilities.
    I don't get down into the specifics of individual weapons 
and that type of stuff. But what I do try to do is focus them 
on the priorities that I have. First and foremost being 
readiness, being the ability to do what the Nation expects 
special operations to do.
    And second of all, being able to accomplish the missions 
that we are being asked to do in support of the geographic 
combatant commander. So those two items, I think, as we look at 
resourcing, I think, really provide the overarching priorities 
that I try to focus the command on.
    Mr. Wilson. And thank you again, Congressman Hunter, for 
your dedicated service to our country.
    We now proceed to Congressman Pete Aguilar, of California.
    Mr. Aguilar. Thank you, Mr. Chairman. Thank you to both our 
witnesses.
    General Votel, you mentioned in your testimony 
transregional challenges and the fact that operating across 
geographic combatant command boundaries is problematic for us. 
Do you believe personally that the DOD's geographic combatant 
command structure is set up in a way to effectively combat the 
challenges we face now and in the future?
    General Votel. I think we are. Certainly when any 
particular organization focuses in a particular region they 
have a tendency to focus in that region and not as much on 
outside of that.
    What we are attempting to do with our transregional look, 
particularly at terrorist organizations, is to really bridge 
that together.
    So what SOCOM has been asked to do is to take lead in how 
we look at transregional violent extremism, how we establish a 
common intelligence picture for organization like the Islamic 
State, how we establish common operating pictures, how we 
assess ourselves across the whole threat.
    And then how we make recommendations up through the 
Chairman to the Secretary of Defense for allocations of our 
resources, how we go after that particular threat.
    So you know I think what we have learned here is that the 
enemies we face, not just terrorists, but I think if you look 
at things like Russia or other threats that we have out there, 
they don't operate with inside of bureaucratic boundaries that 
we may have established.
    And so, it is important that we have the ability to 
transcend these boundaries and look at the whole problem 
instead of just portions of the geography. And that is what our 
transregional approach is attempting to do.
    Mr. Aguilar. Thank you. One more for you, General. You 
mentioned in your testimony this a variation of what the 
chairman mentioned, and modern mass communication technologies 
have emerged to create an opening for exploitation by outside 
state, non-state actors.
    We have seen the effects of some of this communication 
including propaganda in my district. I represent San 
Bernardino. Could you expand on how you see the outgrowth of 
mass communication affecting us in the future and how you think 
these types of conflicts, what role SOCOM will play to assist 
in responding to them?
    General Votel. Well, thank you. I think the most immediate 
impact is that mass communications, you know, and combined with 
social media and a variety of tools like that really enable 
large populations in very disperse places around the globe to 
communicate very, very quickly.
    And I think that is an aspect of the environment that we 
operate in right now. That is not something that we have dealt 
with in the past. And so, it has changed the way that 
populations communicate. It has changed the way that 
governments communicate to their people. It has changed the way 
that popular support you know is developed or sustained for 
particular causes out there.
    And so, I think it is a feature of the environment that we 
are going to have to deal with in the future. And so what it 
requires us to do is to understand social media, to understand 
publically available information, to understand sentiments of 
the people out there, and to be able to leverage that.
    First of all, for our own understanding, and second of all, 
to ensure that the people that we support out there can get 
truthful, accurate information out there to the populations 
that we are attempting to work on their behalfs or we are 
attempting to support in various locations around the world.
    So I really think this is an area of growth for us and an 
area that we have to continue to pay more and more attention 
to.
    Mr. Aguilar. Appreciate it. This question is for both of 
you.
    Earlier this week CNN reported that operations involving 
special operation forces have begun in Iraq. I realize that we 
have a limited amount of what we can go into here. But would 
you mind expanding on as much as possible the actions our 
operators are taking to confront ISIS [Islamic State of Iraq 
and Syria]?
    General Votel. I would just add I think what we are doing, 
Congressman, is we are trying to present them with as many 
different dilemmas as we can, and make it as difficult for them 
to sustain their so-called caliphate as we can.
    And special operations plays an important role in that. So 
do our conventional forces. And I am just extraordinarily proud 
of the way that we are working with our conventional forces to 
kind of create that effect on the ground.
    And while this is an extraordinarily complex environment, a 
complex enemy, a complex political and security situation here, 
I think we are beginning to see positive aspects of some of the 
work that we are doing in this regard.
    Mr. Aguilar. Thank you. Ms. Whelan.
    Ms. Whelan. The only thing that I would add, Congressman, 
is that our special operations forces are critical to enabling 
our partners to actually be more effective in their operations 
in this region as well. So I think that that is a very 
important role that our special operations personnel perform 
and they are uniquely qualified to assist in that area.
    Mr. Aguilar. Thank you both. Thank you, Mr. Chairman.
    Mr. Wilson. And thank you, Congressman Aguilar.
    We now proceed to Congressman Rich Nugent, from Florida.
    Mr. Nugent. Thank you, Mr. Chairman. And I appreciate the 
panel here today and, General, particularly, your service to 
our country.
    I want to talk about particularly the branches and support 
that you receive from all. You know, within the current budget 
environment you know the support for special operations is 
clearly strained.
    For example the Navy's intent to cut the reserve helicopter 
squadrons 84 and 85 which actually provided, you know, 70 
percent of the lift for special operators. And obviously the 
Navy, you know, they saw it as an underutilized helicopter 
squadrons because it wasn't supporting the Navy mission 
necessarily. And it kind of got lost in the shuffle.
    So if you could, is there a way for you to tell me the 
dollar amount in regards to what the service branches, what the 
quantity of support is that they provide you? Is there a way of 
breaking out what that is? Whether it is, you know, big Army, 
or the Navy, or the Air Force? Is there a way or is there a 
measurement of exactly what that costs those branches?
    General Votel. Congressman, I think there probably is. I 
would, with your indulgence, I would take that for the record 
and try to provide you a response in terms of how we do that. I 
would just say right up front though that, as I mentioned in my 
remarks, we are extraordinarily dependent on the services.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Nugent. Absolutely.
    General Votel. You know SOCOM has been well taken care of 
by the committee. And for that we are very grateful. But the 
message that I try to continue to send is that while we are 
grateful for the support we get for SOCOM, it is the impact on 
the services you point out that really does impact what we do.
    Mr. Nugent. That is why I was wondering what that impact 
is. Because my understanding is that they don't. No one has 
ever sat down and said you know what does it cost us----
    General Votel. Yes.
    Mr. Nugent [continuing]. To support.
    General Votel. And I would add that I think that it is 
multidimensional. It is, as you suggest, helicopters. And, by 
the way, I appreciate the support of this committee and 
subcommittee in helping ameliorate some of that and alleviate 
some of the stress that that loss of those squadrons.
    Mr. Wilson. Well, Congressman Zinke was behind you, for 
sure.
    General Votel. Well, I am aware of that, and I am thanking 
the Congressman.
    But the impact is also on people, for example. As the 
services draw down and become smaller, that is a smaller pool 
from which we can draw from. As they impact, have impacts to 
their training areas, that is an impact on training areas that 
we utilize. As they impact their school slots, that is an 
impact on people that we send to school.
    So there is extraordinary impact out there and dependence 
on the services. And so I look forward to trying to answer your 
question a little fulsomely here for the record. But there is 
no doubt that we are extraordinarily dependent----
    Mr. Nugent. Yes. I just want to make sure that as we are 
drawing down, and particularly, you know, the branches as the 
resources become less for them, that we have a way of knowing 
that they are fully resourcing the mission of the special 
operators to make sure that you can get to the places you need 
to get to. I am sure that is never a problem. But I would think 
on the training side, that is where you start getting hurt.
    General Votel. Congressman, you are exactly right. And I 
will speak for the service that I come from, the Army. You know 
right now every rotation we have out at the national training 
center in California has a SOF component to it to some extent.
    So while we should be concerned about the impacts and the 
hard decisions [the] services are making, the one aspect of the 
environment that we have now that we didn't have 12, 15 years 
ago was the interdependence and the real understanding of SOF 
conventional force integration.
    I am extraordinarily proud of this. And if there has been a 
positive aspect to being at war for this long, one of those 
positive aspects is it has created the interdependence between 
conventional forces and SOF forces.
    And as I talk with the service chiefs and other senior 
leaders, this is something that we always recommit ourselves 
to, to ensuring that we continue to train together, and we 
continue to build on those hard won lessons from combat.
    Mr. Nugent. And just to build on Representative Hunter's 
question, and I am not sure, and I don't totally understand, 
you know, what the issue is. Well, I do understand what is the 
issue. But it is hard for me to fathom that. When I put 
deputies out on the street, I know exactly if I hired a deputy, 
I had to have this, this, this, and this and everybody got that 
kit. Unless you had something special, if it was a sniper, 
different story.
    So I don't understand what is going on with, you know, the 
SEALs in regards to pulling weapons back and it is typically 
the one you sleep with. That is the one you work with. That is 
the one you train on. So it would be interesting to hear from 
Representative Hunter what the answer is that you come back 
with. I appreciate that.
    General Votel. Thank you, Congressman.
    Mr. Nugent. I yield back.
    General Votel. Thank you.
    Mr. Nugent. Mr. Chairman, Thank you.
    Mr. Wilson. And thank you Congressman Nugent for your 
background as a former sheriff. All of this is so helpful.
    And then we are grateful to have the former Lieutenant 
Governor of California of all things, Congressman John 
Garamendi.
    Mr. Garamendi. I am just trying to figure out what help 
that might be in this context. But moving on.
    First of all, Secretary Votel and, excuse me, Secretary 
Whelan and General Votel. General, congratulations on your new 
assignment.
    I want to focus on ISR for a few moments, and whether the 
requirements are being met or what you might need. We will soon 
be writing a new authorization here. And this seems to be one 
area where there is great demand and not enough supply. So, 
General, let me start with you specifically about ISR 
requirements, manned, unmanned, any other thing that you might 
need.
    General Votel. Thanks. Thanks, Congressman. Let me just 
state right up front you are not going to meet many military 
leaders that are going to tell you that they are satisfied with 
the amount of ISR that they have.
    We have an insatiable appetite for it. It has changed our 
operations, the way we conduct things, significantly. And so 
you are not going meet many people who are going to say, yes, I 
have everything I need.
    With that, having said that, we, of course, make a fairly 
significant investment within our SOCOM authority here for SOF 
unique capabilities both manned and unmanned to meet some of 
our requirements.
    That meets a portion of our requirements. But we are, 
again, to the earlier conversation, we are dependent on the 
services to do that. So one of the things that I am very happy 
for this coming year is that there is good work at the 
Department level to address the broader ISR requirements out 
there.
    And, of course, as you look at ISR it isn't just about 
platforms in the sky. It is about those platforms. It is about 
the sensors we put on them. It is about the ability to transmit 
that information across the network. And then it is about the 
ability to exploit that information so we understand what we 
are looking at.
    And so all of that, I think, really requires a very 
comprehensive Department look. And so I am very pleased that 
the Department is approaching it in that manner. And so we will 
continue to press our requirements for that. And I think the 
Department has heard us and others here on this particular 
topic.
    Mr. Garamendi. So as we develop the National Defense 
Authorization Act nothing special for you, but a great deal 
special for the overall Department.
    General Votel. I think that is right, Congressman. I think 
it is. I think we have to support that because we all depend on 
it. ISR isn't just unique to us. Everybody depends on that.
    Mr. Garamendi. Fair enough. I would like now to move to Ms. 
Whelan. The 1208 authorization, it is up for reauthorization. 
We are starting to work on it already. The question, apparently 
it speaks to terrorism. Is that geographically eliminated or 
terrorism wherever it might be outside of the United States, I 
suspect?
    Ms. Whelan. Thanks, Congressman. No, it is not 
geographically limited. We have 1208 programs. Most of our 1208 
programs are in the Central Command and Africa Command AORs 
[areas of responsibility] to date, but there are some in other 
locations.
    So it is just generally a very valuable tool for us in 
terms of working with our partners and enabling our partners to 
be part of the counterterrorism effort globally. And as we see 
ISIL in particular spreading its tentacles globally, programs 
like 1208 become very important to us.
    Mr. Garamendi. So the authority to conduct operations, SOF 
operations, in Syria is from 1208?
    Ms. Whelan. No, sir. The authority is not derived from 1208 
specifically.
    Mr. Garamendi. We have been debating here for some time 
whether we have the courage to do an AUMF [Authorization for 
Use of Military Force].
    Ms. Whelan. So the 1208 is specific to working with partner 
forces. We utilize the AUMF as our legal justification for our 
engagement in Libya with partner forces against ISIL and/or AQ 
[Al Qaeda].
    Mr. Garamendi. So the current Afghanistan authorization use 
force has gone from Iraq to Syria to Libya. Next stop is?
    Ms. Whelan. So the AUMF was focused on Al Qaeda. And the 
legal rationale was that ISIL publically declared itself to be 
the successor to Al Qaeda. And so consequently the AUMF allows 
us to address ISIL where we find ISIL in Libya or----
    Mr. Garamendi. I am out of time. But perhaps you can list 
all the places where ISIL now has declared itself to be in the 
world?
    Ms. Whelan. There are a number of locations. I can list a 
few off the top of my head. It would not be exhaustive.
    Mr. Garamendi. So could I.
    Mr. Wilson. Thank you, Congressman Garamendi.
    And now we proceed to Congressman Doug Lamborn, of 
Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you both for 
what you do for our country, General Votel, for your service. I 
really appreciate that.
    Let me ask, drill down on a particular issue that another 
Congresswoman, Gwen Graham, and I have worked on. In last 
year's fiscal year 2016 NDAA we were able to, with the help of 
the rest of the committee and the rest of Congress, obtain 
money for Israel to do tunnel detection and research and 
development so as to detect and map and defeat tunnels.
    And this is a joint program because our country can benefit 
from this also. And $40 million was authorized and 
appropriated. And I know that CTTSO, the Counter Combatting 
Terrorism and Technical Support Office, is playing a role in 
this along with JITDA, the Joint Improvised Threat Defeat 
Agency.
    So how are things going? And what progress are we making? 
And what kind of feedback can you give us on this particular 
narrow, but important subject?
    Ms. Whelan. Thanks for the question, Congressman. So how 
are things going? Basically we have the possibility of a few 
prototypes of new technology for operational evaluation in 12 
to 18 months.
    We actually just recently met, it was in January. Sorry. It 
was in January that we met with our Israeli counterparts to 
discuss the way forward, and particularly how we were going to 
utilize the additional money that was authorized.
    We have agreed on 17 projects, 5 of which have actually 
been initiated in 2015 on a smaller scale. So we are upscaling 
them. Seven of the projects we agreed to are for detecting 
tunnels. Six are for mapping them.
    And then we have some other projects based on, focused on 
developing new tunnel detection and mapping technologies. We 
have one related to intelligence collections. So there is a 
very robust agenda that we have set, we and the Israelis, have 
set out for ourselves.
    So I think we feel that we are in a pretty good position to 
move forward with them in partnership. And we hope to, as we 
move forward, to clarify what, as these programs develop, what 
future requirements might be.
    Mr. Lamborn. Thank you. And, General, do you have anything 
to add to that?
    General Votel. I think Ms. Whelan has pretty 
comprehensively covered that. I would just tell you we are the 
beneficiaries of the great work that is done at CTTSO and the 
great programs like this that CTTSO provides oversight for.
    And I can tell you we watch very carefully that type of 
stuff. The subterranean aspect of the threat is one we have to 
pay attention to as well. Not just for terrorism, but for some 
of our other mission areas. And so this is all very good, good 
work that we think will benefit us as well.
    Mr. Lamborn. Well, that is wonderful. I think you guys are 
doing a great job in helping push this forward with our Israeli 
allies.
    Now changing subjects entirely, talk about the tragic 
subject of suicide. I know that that is an issue with special 
forces folks that sometimes come back with hidden injuries. 
What can you tell us about progress that we are making there in 
the special forces in particular?
    General Votel. Yes. Thanks. First of all thanks for the 
questions.
    And then let me just say it up front, the support that we 
have gotten from the committee and from Congress in general for 
a number of pilot programs and other programs related to our 
Preservation of Force and Family have been extraordinarily well 
received by our service members and their families. And so I 
thank you for the continued support.
    What I can tell you about suicides is that over the last 4 
years we have seen a 33 percent decline in the number of 
suicides. We track them very closely. And this continues to be 
a challenge for us.
    Last year we had a total of 17 suicides across the SOCOM 
enterprise. That certainly is 17 too many. I do expect this is 
a challenge we will continue to deal with. But we are making 
good progress with this.
    The resources that we leveraged from the services and the 
resources that we are able to bring to our organizations 
include social workers, operational psychologists, additional 
chaplain support, licensed social workers, for example are 
really making a difference for us.
    And so what I am seeing in the command is that there is a 
greater willingness to make use of those resources.
    The number one message that we convey across SOCOM with 
respect to this particular problem is that, from our 
perspective, we consider it absolutely normal and expected that 
our people and their families will ask for help.
    That is why the resources are there. And that is why you 
are helping us make that investment. And I think that message 
is beginning to resonate. One of the things that I do track on 
a very close basis is not only suicides, but suicide ideations.
    And what I do see is that ideations are going up. But I 
would offer that to you as a positive sign. Because what it 
indicates is that our people know there are resources 
available. They know they can go to those resources. And they 
know they can go to them without concern for being stigmatized 
for asking for help.
    And in many cases we see peers, family members, and medical 
workers, other teammates that see a problem in somebody and get 
that person to care. And as far as I am concerned every one of 
those cases is a win.
    And so I am positive about the direction we are moving in. 
We have got a lot of work to do. And we will stay on this. But 
we are very appreciative for the support we get from the 
committee on this.
    Mr. Lamborn. Thank you for what you do.
    Mr. Wilson. And thank you, Congressman Lamborn.
    And we now proceed to Congressman Brad Ashford, of 
Nebraska.
    Mr. Ashford. Thank you, Mr. Chairman. And thank you both 
for your service. I want to focus in on something that we are 
involved in at the UARC [University Affiliated Research 
Institute], The University of Nebraska in conjunction with 
STRATCOM [U.S. Strategic Command].
    The mission, one of the missions of the UARC there deals 
with basically supporting our warfighters, finding ways to 
protect them by developing wearables to detect foreign agents, 
and so forth and so on.
    And today I was talking to them. They talked about a 
vaccine that they have developed to inoculate SEALs to specific 
bio threats. So there is this ongoing, I am sure by others 
other than the UARC in Omaha, but across the country and other 
places.
    How is that going in developing wearables to make our 
warfighters safer? And where do you see those partnerships 
going in the future? General or Ms. Whelan.
    General Votel. Let me start. Congressman, I will tell you I 
am not particularly familiar with the program that you are 
talking about here. But to your point about the things that we 
are doing to try to protect our operators better.
    Within SOCOM we have made a significant investment in this 
particular area, particularly in some of our technology 
development areas. We have a program we call TALOS [Tactical 
Assault Light Operator Suit]. And what it is designed to do, is 
it is designed to really help protect our operators at their 
most vulnerable point.
    And that is not just physical protection, but it is also 
medical protection and it is increased situational awareness, 
it is increased visibility. So we are very focused on making 
sure that our people, you know, have the most advantage at the 
points of which they are most vulnerable.
    And I can certainly see a program like you are outlining 
here as being very helpful. You know, some of the areas in 
which we do operate are not the most pleasant environments. And 
so we have to make sure we do everything we can to protect our 
people. So I look forward to looking at the program that you 
describe here and how we might combine that with some of our 
current efforts.
    Mr. Ashford. Great. Thank you. Ms. Whelan.
    Ms. Whelan. The only thing I will add to that, Congressman, 
is through CTTSO we collaborate and look for opportunities to 
collaborate with a lot of different partners in the university 
realm as well as, obviously, the private sector in developing 
new technologies to assist special forces personnel. So this 
would certainly be something that CTTSO might be interested in 
as well.
    Mr. Ashford. Thank you. Thank you, Mr. Chairman. Yield 
back.
    Mr. Wilson. Thank you, Mr. Ashford.
    And we are very fortunate that we have the first Navy SEAL 
to serve in Congress, and additionally he is an Iraq veteran, 
Congressman Ryan Zinke, of Montana.
    Mr. Zinke. Well, I can tell you, General, it was a lot 
easier being a SEAL. But good to see that you have a Frogman 
with you.
    I guess what I hear from friends and acquaintances that are 
still on the teams, there is a lot of frustration on rules of 
engagement, particularly prioritization of collateral damage, 
and the time it goes through the process. There is frustration 
on acquisition, on getting things quicker to the front lines.
    And you know when I looked at it, it was you know as 
bureaucracies expand over the period of time, we have kind of 
lost from what I see a little edge of getting things the 
quickest because of the process in place. And sometimes the 
process mitigates the risk. But the downside of it is that we 
don't get things to the front line fast enough.
    And, of course, then the debate between is it a service 
support, is it a SOF support, what do we do? And there is an 
unintended consequence sometimes where the services have 
different priorities. And as they contract their services, the 
unintended consequence is we don't have, you know, a view from 
here of what it means to SOF. The HS [helicopter support] 
squadrons for example.
    But do you track when the SOF forces ask whether it is a 
RPA [remotely piloted aircraft] or a boat or a you know regular 
helicopter, do we track the number of requests versus the 
number of fills, whether they fulfilled those requests?
    And if that is declining, which I sense it is, do the group 
commanders and the SOF forces track that so we can have a look 
at it to make sure that, if there is a cut, intended cut, we 
can get in there and make sure that the priority is known?
    General Votel. Certainly from the U.S. SOCOM headquarters 
level we track the requirements that our forces put out there 
and then how those are being fulfilled. So the quick answer to 
your question is yes we do. I don't have the immediate number 
for you so I won't hazard a guess here.
    And I would be happy to respond with something on that. But 
we certainly do track our requirements for all of our 
organizations.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Zinke. I think all of us would be interested to know 
what the unintended consequences are on this so we can look at 
it and see if it adversely affects your mission.
    Secondly, is I don't see the requirements for SOF going 
down. Every committee hearing I have been to in the last year 
here the solution set is always add SOF, always add SOF. You 
know and I look at it, it concerns me because I think that the 
force is probably--well I will ask you. I think the force is 
probably strained, but not broken. Is that a fair assessment?
    General Votel. I would answer it a little bit different 
way. I think our readiness right now is stable. And I think we 
are, you know, we are at a, we are at a pretty predictive level 
of deployment right now in terms of, you know, forces we are 
pushing out there.
    As I look at the numbers, and I track them very closely on 
a daily to weekly basis here, we are usually pretty consistent 
about 7,500 people to, you know, 70, 80 different countries 
even before what is out there. And that is a pretty steady 
state for us.
    So one of the things we have been able to do is understand 
our deployment tempo much better. We do track operational tempo 
of organizations. We do track personnel tempo of individuals. 
And you know largely through the great work of my predecessor, 
Admiral Bill McRaven, we really got these things in place.
    Mr. Zinke. What is your goal on pillow time? I mean, I am 
not talking training, but time at home for your operators. Is 
it the same between the SEALs and the SF [Special Forces] and 
the Rangers?
    General Votel. The goal is to have a deployment-to-dwell 
ratio of 1:2, is what we strive for. You know the threshold is 
1:1. If we have to go less than that then I have a requirement 
to----
    Mr. Zinke. Is that training or is that actual time at home?
    General Votel. I am talking mostly about deployments now in 
terms of organizations deploying. What we do try to do within 
kind of our first temple rules is we do track time that people 
are away from home for training and that type stuff.
    Mr. Zinke. The figures I got were somewhere around 280.
    General Votel. It is about 250 days.
    Mr. Zinke. 250 days gone from and the solution to that, I 
don't think we are going to get out of wanting special 
operations, but when do you say no? Because eventually you are 
going to have to say no to these missions and task someone 
else. And there is a breaking point. Is that at 250 or----
    General Votel. I would----
    Mr. Zinke [continuing]. 280 or 300 days, or?
    General Votel. I would say that we are saying no right now. 
You know as I look at all the requirements globally for special 
operations forces and capabilities that are out there that are 
being asked for from the geographic command commanders, we are 
having to make hard decisions all the time in terms of that, in 
terms of the operations that we can support.
    So you know for me it is a pretty delicate balance. We look 
at particular organizations. We look at particular capabilities 
we have out there. You know I can tell you the most heavily 
deployed part of our force right now are our civil affairs 
soldiers, men and women.
    They deploy at a higher rate than everybody else. So we pay 
particular attention to that. We have been with some of our 
elements, NSW [Naval Special Warfare] and our Marine Special 
Operations Command have been able to get into a fairly 
predictable ratio of deployments now that are helping with 
them.
    Some of our Army, some of our Air Force elements are 
deploying at a little higher rate. So I think what we have to 
do is we have to continue to look at this all the time, 
continue to--frankly it is about priorities. It is about 
accepting risk. And we are doing that on a regular basis.
    Mr. Zinke. Thank you, sir, Mr. Chairman. And good luck and 
good hunting in SOCOM.
    Mr. Wilson. Thank you very much, Congressman Zinke. And now 
we will be concluding with a very dedicated member of Congress 
who has visited with our troops in Iraq and Afghanistan, 
Congresswoman Elise Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. And thank you to Ms. 
Whelan and General Votel for testifying here today and for your 
service and leadership to our Nation. General Votel, I wanted 
to congratulate you and wish you my best for what I am sure 
will be a swift confirmation for Central Command.
    I wanted to direct my questions to you, General Votel. At 
your recommendation I recently met with Mr. James Geurts, 
Director of SOF Acquisition, Technology, and Logistics about 
SOFWERX, which you and I discussed.
    And I was encouraged by their willingness to embrace and 
support innovation in unique ways. Can you just describe to the 
committee today why you think SOFWERX is important and what new 
initiatives have come from it?
    General Votel. Yes. Thanks. And thanks for your recent 
visit. We are very glad to host you down there.
    So what SOFWERX does for us is it provides us a publically 
available platform where we can bring members of academia, 
members of industry, a variety of others into our spaces, and 
we can collaborate on problems that we have, as perhaps you may 
have seen or heard a little bit more about that from Mr. 
Geurts.
    What we are able to do is we are able to take advantage of 
technology, laser printing, other things that are right there 
for us to do rapid prototyping. Rapid prototyping is, I think, 
is one of the biggest lessons that we have learned out of this.
    We can bring operators together with scholars, with members 
of industry. We can address hard problems. And as we look at 
the solutions that industry provides to us we can provide them 
immediate feedback from an operator who will say why this won't 
work or why it might work or what we might do to it to make it 
better.
    And then we can immediately model that through the, kind of 
the magic of laser printing right here and immediately look at 
how that might work. So I think it is changing. It is helping 
us address hard problems.
    It is helping us identify solutions faster. And it is 
changing the way that we look at acquisition in Special 
Operations Command. Much more collaborative, much more focused 
on rapid prototyping, and much more focused on being open and 
available to industry and academia.
    Ms. Stefanik. I appreciate that comment. My follow-up, 
which you answered, was about how this work can influence how 
DOD conducts acquisition and procurement. And I think your 
example of rapid prototyping and getting the best and brightest 
minds from industry, from tech companies, from academia is a 
great model.
    I wanted to ask specifically, will the decrease in 
procurement funding by $97 million from fiscal year 2016 levels 
in the President's budget request impact SOFWERX's mission 
specifically?
    General Votel. I don't expect that it is. I looked at the 
numbers for SOFWERX and it looks pretty consistent to me. In 
fact I think it is a little bit of an increase in the coming 
years. So I think we are in pretty good shape at SOFWERX.
    Ms. Stefanik. Great. I yield back, Mr. Chairman.
    Mr. Wilson. And thank you very much, Congresswoman 
Stefanik. And Secretary Whelan, best wishes on your new duties. 
And, General Votel, best wishes to you. And, again, I thank 
both of you for what you have done for our country. We are now 
adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

      
=======================================================================
                           A P P E N D I X

                             March 1, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2016

=======================================================================

     [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 1, 2016

=======================================================================

               RESPONSE TO QUESTION SUBMITTED BY MR. NUGENT

    General Votel. USSOCOM estimates the dollar value of resources and 
support provided annually by the Services at approximately $8B, more 
than half of which is provided in the form of military pay, benefits 
and allowances.
    SOF organizations are the recipients of Major Force Program 11 
(MFP-11) funding, and accounting for MFP-11 is straightforward and 
easily accomplished because it is specifically appropriated to USSOCOM 
and is coded as such in financial systems. However, dollars 
appropriated to and used by the Services to support SOF are not as 
easily distinguishable. While some Service funding is distributed 
directly to SOF organizations by their parent Service, much of the 
Service funding supporting SOF collectively supports an entire 
Service's population without regards to delineation between populations 
of Service SOF and General Purpose Forces. As an illustration, SOF 
organizations reside on military installations managed and funded by 
the services. As such, they are tenants of the installation and receive 
basic support and services as a part of the military population 
residing there. Examples of garrison support and services received 
includes facility sustainment, restoration and maintenance, shared use 
of weapons ranges and airfields. Further, SOF operations are almost 
always dependent on Services in the areas of base operating support, 
logistics, and infrastructure. Support to deployed SOF from the 
Services can also be provided via direct Service funding to the SOF 
organization, but is more frequently provided via funding executed by a 
non-SOF Service organization to support SOF requirements. The latter 
category, both in garrison and deployed, is very difficult to isolate 
in Service budgeting and accounting systems.
    Difficulties in delineating costs between SOF and the Services were 
also acknowledged in a recent GAO Report to Congress, GAO 15-571 dated 
July 2015. It concluded in part that, ``. . . neither DOD nor the 
military services have systematically collected, estimated, or reported 
total SOF funding needs.'' In the absence of a formal Department of 
Defense methodology to determine the allocation of military Service 
funding to support SOF, USSOCOM estimates the level of funding provided 
by the military Services using numerous assumptions and the values of 
known support, but we recognize the $8B is only a rough estimate, and 
the actual costs likely vary significantly each year and are 
substantially different than our estimate.   [See page 15]
                                 ______
                                 
              RESPONSE TO QUESTIONS SUBMITTED BY MR. ZINKE
    General Votel. Although we maintain a general assessment of the 
fills for High Demand/Low Density Service Provided Capabilities (SPCs) 
(e.g., ISR, rotary wing, Base Operating Support, ships), SOF's heavy 
reliance on numerous SPCs makes it challenging to track in a 
comprehensive manner. The Services have not yet fully identified where 
they would absorb future budget reductions, therefore, impacts on 
support to SOF cannot be fully assessed at this time. However, our SOF 
operational units are beginning to experience initial operational 
impacts due to shortfalls in some HD/LD SPCs. As an example, the Navy 
initially made the decision to decommission two helicopter squadrons 
(HSC-84/85) in FY16, which significantly impacted rotary wing training 
support to our Components. USSOCOM, working with the Navy and Congress, 
helped identify the potential training shortfall, resulting in the 
Navy's decision to retain one of the squadrons (HSC-85). We continually 
assess the HD/LD SPC support to our SOF units, and when able, take the 
appropriate measures to ensure all parties are informed to minimize the 
impact to SOF operations.   [See page 21.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2016

=======================================================================
      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Secretary Whelan and General Votel, the SOFWERX 
initiative has the potential to capture and spur some exciting 
technology. How will the lessons learned from this creative initiative 
and technologies be shared across the S&T enterprise in the Department 
of Defense?
    Ms. Whelan. The Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict fully endorses U.S. Special 
Operations Command's (USSOCOM's) ``SOFWER-X'' initiative. Through this 
and other initiatives, USSOCOM continues to build a culture that 
embraces and supports innovation in its research, development, and 
acquisition programs. USSOCOM is developing and testing new operating 
models to foster innovation through proactive coordination with other 
U.S Government science and technology (S&T) organizations. Finding 
innovative ways to invest in programs to enhance existing capabilities 
and create new advantages for our special operations forces is an 
important part of USSOCOM's mission.
    USSOCOM has incorporated SOFWER-X lessons learned and technologies 
identified or developed into a variety of existing processes and forums 
for S&T collaboration. These forums include Service component briefings 
and updates, S&T Council meetings, and USSOCOM's quarterly S&T 
newsletter. This information is also passed to the Services, the 
Department of Defense (DoD), Department of Energy laboratories, and 
academia through briefings and updates in a variety of venues, 
published articles in appropriate journals, direct discussions, and 
briefings. Finally, SOFWER-X activities and status updates are 
presented at SOF Acquisition Summits organized by the Office of the 
Under Secretary of Defense for Acquisitions, Technology, and Logistics 
that include participation by acquisition officials from across the 
Department.
    Mr. Langevin. Secretary Whelan and General Votel, the SOFWER-X 
initiative has the potential to capture and spur some exciting 
technology. How will the lessons learned from this creative initiative 
and technologies be shared across the S&T enterprise in the Department 
of Defense?
    General Votel. While the SOFWERX initiative is still new and has 
not met its full operational stride, we agree that it has the potential 
to capture and spur exciting technology for the Command and the 
Department. Since January 1, 2016, we have hosted more than 188 SOFWERX 
events as disparate as a high school robotics championship, multiple 
``hackathons,'' several rapid prototyping and technology sprint events, 
five structured week-long training events, and more than 60 
orientations for distinguished visitors from a variety of backgrounds.
    We have incorporated capturing and disseminating SOFWERX lessons 
learned and technologies identified or developed into a variety of our 
existing communications processes. We are communicating this 
information to our Components and Theater Special Operations Commands 
through briefings and updates at our existing S&T Council meetings and 
inclusion in our quarterly S&T newsletters. Externally, we are 
communicating information to our partners in the Services, DOD and 
Department of Energy labs, and academia through briefings and updates 
in a variety of venues, published articles in journals, direct 
discussion and briefings during meetings and visits, and by maintaining 
an open invitation for orientation visits to the facility. We are 
actively communicating the SOFWERX message and status with the 
Assistant Secretary of Defense for Research and Engineering (ASD(R&E)), 
his staff, and other key members of the DOD S&T community. We 
participate in weekly telecons with (ASD(R&E)), attend several key 
planning meetings on an annual basis, and utilize those and other 
opportunities to actively inform key DOD S&T partners and include them 
in our SOFWERX activities.
    SOFWERX was established under a Partnership Intermediary Agreement 
with the Doolittle Institute (DI). For each SOFWERX event, DI has the 
responsibility to help USSOCOM capture results, attendees, actions, and 
lessons learned, and provide this information to the Command in 
quarterly and annual reports. In addition, for events that require a 
separate Collaborative Project Order (over and above pre-planned 
workload), DI is responsible for preparing a detailed report of 
findings and accomplishments of the individual collaborative project in 
a document that is suitable for publication.
    In summary, we support our SOFWERX efforts with both formal and 
informal methods of capturing lessons learned and technologies and 
sharing them across the SOCOM enterprise, the DOD S&T community, and 
our external partners. We are actively working to increase both the 
number of information sharing vehicles and the intended audience, and 
will actively work to keep you informed as our efforts progress in 
those areas.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
